Proof of Service
I, Glen Thomas Dotson, do hereby declare under paini <5f perjury
Pursuant to 28 USC 1746, that I have sent copies of my motion for a Writ
of Certiori and related documents to the solicitor General of the United
Staes, Room 5614, Department of. justice, 950 Pennsylvania AVE. , N.W.
Washington, D.C., 20530-00001; and to Dean R. Hoag, Assistant U.S. Attorney
Eaastern District of Missouri, 111 South Tenth Street, 20th Floor, St.
Louis, Mo. 62102,. By depositing them in the U.S. mail depository, with
proper postage Affixed thereto, at the Medical Center for Federal Prisoners
unit 8-1', Springfield, MO. 65801, on this

day of January 2021. I invoke

the prison mailbox rule, Houston V. Lack, 108 S. ct 2379,101 L.Ed 245 (1988).

Date Oci/A ^ 5 Q-Od-/

<H

K
Glen Thomas Dotson

Glen THomas Dotson
33121-044
Medical Center for Federal Prisoners
P.0. Box 4000
Springfield MO. 65801-4000

